APPLICATION AND
SOLICITATION
DISCLOSURE
VISA GOLD/VISA CASH BACK/VISA GOLD SECURED

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Gold

7.90% , 8.65% , 9.40% , 11.40% , 13.40% or
16.90% , based on your creditworthiness.
Visa Cash Back

9.24% , 9.99%, 10.74%, 12.74%, 14.74% or
17.99% , when you open your account, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Visa Gold Secured

7.90%

APR for Balance Transfers

Visa Gold
7.90% , 8.65% , 9.40% , 11.40% , 13.40% or 16.90% , based on your
creditworthiness.
Visa Cash Back
9.24% , 9.99%, 10.74%, 12.74%, 14.74% or 17.99% , when you open
your account, based on your creditworthiness. This APR will vary with the
market based on the Prime Rate.
Visa Gold Secured
7.90%

APR for Cash Advances

Visa Gold
7.90% , 8.65% , 9.40% , 11.40% , 13.40% or 16.90% , based on your
creditworthiness.
Visa Cash Back
9.24% , 9.99%, 10.74%, 12.74%, 14.74% or 17.99% , when you open
your account, based on your creditworthiness. This APR will vary with the
market based on the Prime Rate.
Visa Gold Secured
7.90%

Penalty APR and When it Applies

Visa Gold
None
Visa Cash Back
None
Visa Gold Secured
None

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01701269-MXC10-C-1-011720 (MXC101-E)

How to Avoid Paying Interest on
Purchases

Your due date is at least 23 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
- Overdraft Protection Transfer Fee
- Account Transfer Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
None
None
None
None
None
None
$10.00 or 2.00% of the amount of each cash advance, whichever is greater
None
None
$5.00
$10.00 or 2.00% of the amount of each account transfer, whichever is
greater
Up to $20.00
None
Up to $27.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: January 5, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Gold, Visa Cash Back and Visa Gold Secured are secured credit cards. Credit
extended under this credit card account is secured by various personal property and money including, but not
limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for
this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less, if you are 10 or more days late in making a
payment.
Cash Advance Fee (Finance Charge):
$10.00 or 2.00% of the amount of each cash advance, whichever is greater.
Account Transfer Fee (Finance Charge): $10.00 or 2.00% of the amount of each account transfer, whichever is greater.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01701269-MXC10-C-1-011720 (MXC101-E)

Overdraft Protection Transfer Fee (Finance Charge):
$5.00
Returned Payment Fee:
$27.00 or the amount of the required minimum payment, whichever is less.
Card Recovery Fee:
None.
Card Replacement Fee:
$15.00.
Document Copy Fee:
$12.00 per document.
Pay-by-Phone Fee:
$10.00.
PIN Replacement Fee:
$5.00.
Rush Fee:
$50.00 overnight.
Statement Copy Fee:
$5.00 per document.
Unreturned Card Fee:
None.
Account Research Fee:
$15.00 Per claim.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01701269-MXC10-C-1-011720 (MXC101-E)

